CERTIFICATE OF SERVICE
No. TBD
Richard Fields
Petitioner(s)
v.
Diana Palmer! et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
w'Avehtie. Suite 283. Boston, MA 02215.
.
2..0n'the undersigned date, 1 served the patties lathe above captioned matter with the Richard
Fields Petition for Writ of Certiorari, by .mailing three (3) true and correct copies of the same
by USPSPribrity mail, postage prepaid for delivery to the following addresses:
Jules M. Haas
Attorney at I,aw
805 Third Ave 12 Floor Street
Hew York, NY 10022
(212)355-2575
j uies.haas@verizon.net
Counselfor Respondents

Albert V. Messina
Novick & Associates
202 East Main Street
Huntington, NY 11743
(212) 897-0500
amessina@novicklawgfoup.com
Counselfor Respondents

£

Dan Abramovich
September 20, 2,019
SCP Tracking: Fields-2nd Floor-Cover White

